App. 1
Affirmed and Opinion filed December 20, 2018.
[SEAL]
In The
Fourteenth Court of Appeals
-----------------------------------------------------------------------

NO. 14-17-00764-CV
-----------------------------------------------------------------------

JAMES K. COLLINS AND
TONI SHARRETTS COLLINS, Appellants
V.
D.R. HORTON-TEXAS LTD., Appellee
On Appeal from the 284th District Court
Montgomery County, Texas
Trial Court Cause No. 15-04-04236-CV
OPINION
This case concerns the ownership of land in Montgomery County on which appellee D.R. Horton-Texas
Ltd. intends to develop a subdivision.1 Appellants
James K. Collins and Toni Sharetts [sic] Collins claimed
ownership of some of the land being developed, which
was adjacent to their homestead and which they
1

The case was transferred to this court from the Ninth Court
of Appeals by Texas Supreme Court Transfer Order. Because of
the transfer, we must decide the case in accordance with the precedent of the Ninth Court of Appeals if our decisions otherwise
would have been inconsistent with that court’s precedent. See
Tex. R. App. P. 41.3.

App. 2
referred to as the Sieberman survey. D.R. Horton sued
the Collinses to quiet title, for trespassing on its property and for a declaration concerning the boundaries
of the respective properties. The Collinses counterclaimed for adverse possession. A year later, the Collinses added claims for trespass, conversion, and
malicious prosecution.2 D.R. Horton filed a motion for
partial summary judgment for a declaration that the
Collinses could not claim property rights through the
Sieberman survey because (1) the subject property
boundary had been judicially determined and (2) the
Collinses deed expressly references the judicial determination and, as such, they are estopped to assert
rights through the Sieberman survey. The trial court
granted the motion.
A few weeks before trial, the Collinses amended
their pleadings and added new counterclaims emanating from incidents in 2016. D.R. Horton filed a motion
to sever the new claims, which the trial court granted.
The Collinses’ claims for trespass, conversion, and
malicious prosecution were severed, and D.R. Horton’s
trespass and to quiet title claims and the Collinses’ adverse possession claim proceeded to trial. The jury
found for D.R. Horton on all claims presented but was
not asked to and did not award any damages.
In seven issues, the Collinses challenge (1) the
grant of partial summary judgment, (2) that a visiting
2

Among the affirmative defenses and new counterclaims in
the amended pleading, the Collinses asked the court to declare
ownership of the disputed tract in accordance with the Sieberman
survey.

App. 3
judge presided over the trial, (3) the denial of their motion for directed verdict, (4) the denial of their motion
for judgment notwithstanding the verdict, (5) the denial of their motion for a continuance, (6) the severance
of certain of their counterclaims, and (7) the exclusion
of certain evidence. We affirm.
Background
The Collinses assert that their rights to the disputed property derive from a grant of 1/3 of a league
of land in 1850 from the State of Texas to Frederick
Sieberman, who was among the massacred at Goliad.
The Collinses claim to have received a quitclaim deed
from the heirs of the Sieberman survey in 2015.
D.R. Horton contends that to the extent the
Sieberman survey ever existed, it was extinguished by
a 1944 federal court judgment in which the boundaries
of two other surveys, the James Hodge and the David
Thomas, were determined to meet in the area that
would have contained the Sieberman survey. This
judgment was affirmed by the Fifth Circuit in McComb
v. McCormack, 159 F.2d 219 (5th Cir. 1947), and both
the judgment and appellate opinion were recorded in
the real property records. D.R. Horton additionally
maintains that the Collinses are estopped from asserting rights to the disputed property because the deed by
which they acquired their homestead property referenced the subdivision plat, which in turn referenced
the 1944 judgment recorded in the property records.

App. 4
The Collinses also assert that even if D.R. Horton
is correct that the federal judgment extinguished the
Sieberman survey, they adversely possessed the disputed property. As stated, the trial court granted partial summary judgment favoring D.R. Horton on the
existence of the Sieberman survey and the Collinses’
claim to property rights by way of the survey.3
Eleven days before trial, on March 2, 2017, the
Collinses moved for a continuance on the grounds
that Ms. Collins’s [sic] was scheduled for hip replacement surgery on the first day of trial (March 13) and
Dr. Collins would not be available for trial because he
needed to cover for other doctors in his practice group
who had spring break plans. Attached to the motion
was a note from Ms. Collins’s doctor stating that she
needed the surgery and March 13 was the first available date. The trial court denied the motion. On March
13, before trial began, the Collinses moved for reconsideration because Ms. Collins was then at the hospital
and Dr. Collins was with her. The trial court again denied the motion. The Collinses were absent for voir dire
of the jury panel and for the beginning of testimony,
but they were able to attend trial starting with the second day and both were able to testify.

3

The trial court “ordered that [the Collinses] take nothing
on their claims related in any manner to the [Sieberman survey].”
We construe this as granting the declaratory relief requested by
D.R. Horton and denying the declaratory relief requested by the
Collinses.

App. 5
Five days before trial, the trial court severed the
Collinses’ claims for trespass, conversion, and malicious prosecution, which involved allegations that D.R.
Horton came onto the Collinses’ property and removed
a fence and other personal property and that Dr. Collins was unlawfully arrested after he discharged a firearm. The malicious prosecution claim had been added
two weeks before trial and also involved allegations
against several new cross-defendants, including D.R.
Horton employees and Montgomery County Sheriff ’s
Department personnel.
The issues remaining after the grant of partial
summary judgment favoring D.R. Horton and the severance of some of the Collinses’ counterclaims went to
trial with a visiting judge presiding on March 13, 2017.
Ultimately, the jury was asked three questions: two
regarding whether the Collinses had adversely possessed the disputed property and one regarding
whether the Collinses had trespassed on D.R. Horton’s
property. The jury found that no adverse possession
had occurred but the Collinses had trespassed on D.R.
Horton’s property. The jury was not asked any damages questions.
The trial court denied the Collinses’ motions for
directed verdict and judgment notwithstanding the
verdict. In its final judgment, the trial court ordered
that an affidavit of adverse possession that the Collinses had filed in the property records was “invalid
and of no force and effect and . . . null, void, canceled
and discharged of record.” The court further permanently enjoined the Collinses from interfering with

App. 6
D.R. Horton’s use and occupancy of the disputed property.
I.

Partial Summary Judgment
on Declaratory Relief

In their first issue, the Collinses contend that the
trial court erred in granting partial summary judgment and thereby resolving all issues pertaining to
the existence of the Sieberman survey in favor of D.R.
Horton. We review a grant of summary judgment under a de novo standard of review. See Mann Frankfort
Stein & Lipp Advisors, Inc. v. Fielding, 289 S.W.3d 844,
848 (Tex. 2009). When, as in this case, the order granting summary judgment does not specify the grounds
upon which the trial court relied, we must affirm if any
of the independent summary judgment grounds is meritorious. State v. $90,235, 390 S.W.3d 289, 292 (Tex.
2013). This, in turn, means that when a summary judgment motion alleges multiple grounds and the order
granting summary judgment does not specify the
ground on which judgment was rendered, the appellant must challenge and negate all summary judgment
grounds on appeal. See, e.g., Davis v. Galagaza, No. 14–
16–00362–CV, 2017 WL 1450582, at *2 (Tex. App.–
Houston [14th Dist.] Apr. 18, 2017, no pet.) (mem. op.);
Heritage Gulf Coast Props., Ltd. v. Sandalwood Apartments, Inc., 416 S.W.3d 642, 653 (Tex. App.–Houston
[14th Dist.] 2013, no pet.). If summary judgment may
have been rendered, properly or improperly, on a
ground not challenged, the judgment must be affirmed.

App. 7
Britton v. Tex. Dep’t of Criminal Justice, 95 S.W.3d 676,
682 (Tex. App.—Houston [1st Dist.] 2002, no pet.).
In its motion, D.R. Horton asserted that (1) the
1944 judgment established the relevant boundaries
and (2) the deed by which the Collins acquired their
property referenced a subdivision plat that in turn references and recognizes the 1944 judgment and, thus,
the Collinses were estopped by deed from asserting the
effect of the judgment. D.R. Horton points out that the
Collinses failed to address the estoppel ground in their
opening brief on appeal.
In their reply brief, the Collinses argue that they
did enough in their opening brief by generally challenging the grant of partial summary judgment. This
is incorrect. The estoppel ground was independent of
the merits of the ground based on the 1944 judgment.
See Galagaza, 2017 WL 1450582, at *2; Heritage Gulf
Coast, 416 S.W.3d at 653. Also in their reply brief, the
Collinses attempt to challenge the merits of the estoppel ground. However, we generally do not consider
issues raised for the first time in a reply brief and decline to do so here. See, e.g., HMT Tank Serv. LLC v.
Am. Tank & Vessel, Inc., No. 14-17-00846-CV, 565
S.W.3d 799, 812, 2018 WL 6217085, at *8 n.10 (Tex.
App.—Houston [14th Dist.] Nov. 29, 2018, no pet. h.);
Zurita v. Lombana, 322 S.W.3d 463, 477 (Tex. App.—
Houston [14th Dist.] 2010, pet. denied). Because the
partial motion for summary judgment could have been
based on an unchallenged ground, we overrule the
Collinses’ first issue. See Britton, 95 S.W.3d at 682.

App. 8
II.

Objection to Visiting Judge

In their second issue, the Collinses contend that
the trial court erred in permitting a “disqualified”
judge to preside over the trial. Specifically, they assert
that they timely objected to the assignment of the visiting judge, and she was therefore disqualified from
sitting pursuant to Government Code section 74.053.
Tex. Gov’t Code § 74.053.
Under section 74.053(b), “[i]f a party to a civil case
files a timely objection to the assignment [of a visiting
judge], the judge shall not hear the case.” An objection
under this section must be filed no later than the seventh day after the date the party receives actual notice
of the assignment or before the date the first hearing
or trial, including pretrial hearings, commences,
whichever date occurs earlier. Id. § 74.053(c). The statute requires an immediate objection to an assigned
judge to prevent parties from attempting to “sample”
the judge before objecting. In re Canales, 52 S.W.3d
698, 703 (Tex. 2001) (orig. proceeding).4
The Collinses insist that their objection—filed on
March 9, 2017, before the visiting judge presided over
any proceedings in the case—was timely.5 However, in
a pretrial conference on February 27, 2017, the district
4

Under section 74.053(c), a trial court may extend the time
to file an objection on written motion by a party who demonstrates
good cause. The Collinses did not request and the trial court did
not grant an extension in this case.
5
The Collinses filed their objection on March 9 and presented it to the trial court for a ruling on March 13.

App. 9
judge informed the parties that a particular visiting
judge would be presiding over the trial that was set to
begin on March 13. The objection filed on March 9 was
therefore not timely because it was filed more than
seven days after the Collinses received actual notice
of the visiting judge’s assignment. See Tex. Gov’t Code
§ 74.053(c). Indeed, at the start of trial proceedings on
March 13, the visiting judge stated that she could not
grant the objection because it was not timely.
As the Collinses point out, the visiting judge apparently signed an order purporting to grant the objection on the same day. The signing of this order,
however, was clearly a mistake because the visiting
judge then presided over the trial and at no point did
anyone object to her continuing to preside.6 In order to
preserve a complaint for appellate review, a party must
make a timely and sufficiently specific request, objection, or motion in the trial court. Tex. R. App. P. 33.1;
Zewde v. Abadi, 529 S.W.3d 189, 195 (Tex. App.—Houston [14th Dist.] 2017, no pet.). As discussed above, the
Collinses’ objection to the visiting judge was not timely,
and the Collinses made no objection to the judge continuing to sit after she mistakenly signed an order
granting the untimely objection. Cf. In re S.Q., No. 0418-00119-CV, 2018 WL 3129434, at *1 (Tex. App.—San
Antonio June 27, 2018, pet. denied) (mem. op.) (“[A]
party impliedly withdraws an objection by participating in a hearing or trial without advising the assigned
6

We further note that the judge subsequently signed the final judgment, which stated that the objection to her sitting was
overruled because it was not timely.

App. 10
judge that an objection has been filed and seeking a
ruling.” (citing In re Carnera, No. 05-16-00055-CV,
2016 WL 323654, at *2 (Tex. App.—Dallas Jan. 27,
2016, orig. proceeding) (mem. op.))). The Collinses have
therefore not preserved anything for review, and we
overrule their second issue.
III.

Motions for Directed Verdict and JNOV

In issues three and four, the Collinses contend respectively that the trial court erred in overruling their
motions for directed verdict and judgment notwithstanding the verdict. We review a trial court’s decision
to grant or deny a motion for a directed verdict and a
motion for judgment notwithstanding the verdict under a legal sufficiency standard of review. See City of
Keller v. Wilson, 168 S.W.3d 802, 823 (Tex. 2005) (explaining that the test for legal sufficiency is the same
for directed verdict, judgment notwithstanding the
verdict, and appellate no-evidence review). A party
challenging the legal sufficiency of the evidence supporting an adverse jury finding on an issue on which it
did not have the burden of proof at trial must demonstrate on appeal that there is no evidence to support
the adverse finding. Exxon Corp. v. Emerald Oil & Gas
Co., L.C., 348 S.W.3d 194, 215 (Tex. 2011).
The problem with the Collinses’ arguments under
these issues is that they are challenging the proof concerning trespass to try title, a cause of action that D.R.
Horton did not plead and was not tried and therefore
was not at issue in this case. D.R. Horton pleaded

App. 11
causes of action to quiet title, for trespassing on its
property and for a declaratory judgment concerning
the property boundaries.
To prevail in a trespass to try title action, a plaintiff must usually (1) prove a regular chain of conveyances from the sovereign, (2) establish superior title
out of a common source, (3) prove title by limitations,
or (4) prove title by prior possession coupled with proof
that possession was not abandoned. Martin v. Amerman, 133 S.W.3d 262, 265 (Tex. 2004). See generally
Tex. Prop. Code § 22.001 (“Trespass to Try Title”). The
Collinses assert specifically that D.R. Horton failed to
prove a regular chain of conveyances back to the sovereign or superior title. They also repeat their arguments that they had title to the Sieberman survey, an
issue that was determined by the partial summary
judgment and not at trial.
Even after D.R. Horton pointed out in its brief that
the Collinses were challenging a cause of action that
it did not pursue, the Collinses did not, in their reply
brief, explain how the arguments made could apply to
any of D.R. Horton’s actual causes of action.7 We
7

The jury was asked if the Collinses had trespassed on D.R.
Horton’s property, with trespass being defined as “an entry on the
property of another without having consent or authorization of
the owner. To constitute trespass, entry upon another’s property
need not be in person, but may be made by causing or permitting
a thing to cross the boundary of the property.” D.R. Horton’s quiet
title claim sought to remove the cloud on D.R. Horton’s title created by the affidavit of adverse possession filed by the Collinses.
In connection with this claim, the jury was asked if the Collinses
had adversely possessed the disputed property.

App. 12
decline to make the Collinses’ argument for them. See
Bhatia v. Woodlands N. Houston Heart Ctr., PLLC, 396
S.W.3d 658, 666 (Tex. App.—Houston [14th Dist.] 2013,
pet. denied).
We overrule the Collinses’ third and fourth issues.
IV.

Motion for Continuance

In their fifth issue, the Collinses contend that the
trial court erred in denying their motion for a continuance. The Collinses first requested a continuance five
days before trial based on Ms. Collins’s scheduled surgery and Dr. Collins’s need to cover for other doctors.
The Collinses re-urged the motion on the first day of
trial. The Collinses were then absent for voir dire of the
jury panel and for the beginning of testimony, but they
were able to attend trial starting with the second day,
and both were able to testify.
We review a trial court’s order denying a motion
for continuance for a clear abuse of discretion and on
a case-by-case basis. Joe v. Two Thirty Nine Joint Venture, 145 S.W.3d 150, 161 (Tex. 2004). A trial court only
abuses its discretion when it reaches a decision so
arbitrary and unreasonable as to amount to a clear
and prejudicial error of law. Id. As the Collinses
acknowledge, the absence of a party to a proceeding,
standing alone, is not sufficient cause to grant a continuance. See, e.g., Pena v. Tex. Dep’t of Family & Protective Servs., No. 03-11-00612-CV, 2012 WL 5974076,
at *5 (Tex. App.—Austin Nov. 21, 2012, no pet.) (mem.
op.). The absent party must show that it had a

App. 13
reasonable excuse for not being present and that its
absence would result in prejudice. Id.
Assuming without deciding that the Collinses asserted reasonable excuses for their absences, we turn
to their claims that they were prejudiced by missing
the first day of trial. The Collinses specifically argue
that they were prejudiced because they were not present during voir dire to determine if the jury selected
has any bias against them. They also complain that
testimony began without them present to “ascertain
any bias” of the witnesses. The Collinses offer no relevant authority or record citations in support of this alleged prejudice. See Tex. R. App. P. 38.1(i) (requiring
appellant’s brief to include relevant citations to authorities and the record). They further offer no explanation how their presence would have revealed any
possible bias by either potential jurors or testifying
witnesses. The Collinses’ counsel was present and actively participated in trial proceedings on the first day.
The Collinses do not suggest anything that their counsel would have or could have done differently had they
also been present. They present no evidence of prejudice they sustained.
Courts finding prejudice have done so based on
evidence of prejudice actually sustained, not on merely
speculative or potential prejudice. See Coastal Ref. &
Mktg., Inc. v. U.S. Fid. & Guar. Co., 218 S.W.3d 279, 288
(Tex. App.—Houston [14th Dist.] 2007, pet. denied). To
hold that the trial court erred under such circumstances would effectively eliminate the requirement
that a party demonstrate prejudice in order to obtain

App. 14
a reversal based on the denial of a continuance. Cf.
Henry v. Tax Appraisal Dist. of Bell Cty., No. 04-1300075-CV, 2013 WL 6672512, at *2 (Tex. App.—Beaumont Dec. 18, 2013, no pet.) (mem. op.) (rejecting general assertion of prejudice based on “fairness and due
process” as inadequate).
Because the Collinses fail to demonstrate prejudice resulting from the denial of their motion for a continuance, we overrule their fifth issue.
V.

Severance of Counterclaims

In their sixth issue, the Collinses contend that the
trial court erred in severing their counterclaims for
trespass, conversion, and malicious prosecution five
days before trial. The first two claims, trespass and
conversion, concerned allegations that D.R. Horton
personnel came onto the Collinses’ property and removed a fence and other personal property. The malicious prosecution claim was added two weeks before
trial and asserted that Dr. Collins was unlawfully arrested after he discharged a firearm. The malicious
prosecution claim also involved allegations against
several new cross-defendants, including D.R. Horton
employees and Montgomery County Sheriff ’s Department personnel.
“Any claim against a party may be severed and
proceeded with separately.” Tex. R. Civ. P. 41. Accordingly, trial courts have broad discretion in determining
when claims should be severed. State v. Morello, 547
S.W.3d 881, 889 (Tex. 2018). A claim is considered

App. 15
properly severable if (1) the controversy involves more
than one cause of action, (2) the severed claim is one
that would be the proper subject of a lawsuit if independently asserted, and (3) the severed claim is not
so interwoven with the remaining action that they involve the same facts and issues. Id. In severing cases,
courts look to avoid prejudice, do justice, and increase
convenience. In re State, 355 S.W.3d 611, 613 (Tex.
2011).
The parties primarily dispute the third factor. The
Collinses do not dispute that the controversy involved
multiple causes of action or that the severed claims
could have been brought as separate lawsuits. They
argue instead that the trespass, conversion, and malicious prosecution claims involve the same facts and
issues as many of the nonsevered claims because “it
was Horton’s claim to the disputed land that was the
catalyst” for these torts.
D.R. Horton filed its lawsuit in April 2015. The
Collinses’ trespass and conversion claims concern alleged conduct by D.R. Horton occurring in 2016. The
Collinses alleged that after D.R. Horton’s attorney sent
them a letter in June 2016 indicating that D.R. Horton
would begin work on one section of the proposed development, D.R. Horton entered the disputed property on
July 1 through a different section, where the Collinses
had erected a fence and placed “tables, chairs, umbrellas, and hammocks.” According to the Collinses, upon
entering the disputed property, D.R. Horton destroyed
the fence and removed the other personal property
items. They claim that the entry itself was a trespass

App. 16
and the destruction and removal of the personal property constituted conversion.
In their malicious prosecution claim, the Collinses
allege that Dr. Collins was unlawfully arrested after an
incident at the property during which he fired a shotgun into the ground.8 The Collinses assert that D.R.
Horton employees provided false and incomplete information to the prosecutor after the incident, which led
to criminal charges being filed. The charges were subsequently dismissed by the prosecutor. Under this
claim, the Collinses added four additional defendants,
two employees of D.R. Horton and two employees of the
sheriff ’s office.9
We begin our analysis by noting that all three
added claims allege transgressions occurring during
the pendency of the lawsuit. See generally In re Liu,
290 S.W.3d 515, 523-24 (Tex. App.—Texarkana 2009,
orig. proceeding) (explaining that trial court could have
reasonably concluded that close temporal proximity of
alleged torts and possibility that damages were caused
by several tortfeasors in combination suggested claims
should be tried together). The claims remaining after
the severance included the Collinses’ adverse possession and trespass to try title causes of action as well as
8

The Collinses state that he did this to alert a D.R. Horton
backhoe operator to his presence.
9
The Collinses asserted that D.R. Horton employed several
off-duty sheriff ’s deputies to accompany its employees to the
property. It is unclear from the Collinses’ pleadings whether the
sheriff ’s employees added as defendants were purportedly working for D.R. Horton at the time of the incident.

App. 17
D.R. Horton’s causes of action for trespass, to quiet title, and for a declaration concerning the property
boundaries. Although, as the Collinses argue, the new
claims may have had their roots in the property dispute that was part and parcel of the remaining claims,
the severed claims concerned different events, different witnesses, some different issues, and, as to the malicious prosecution claim, different defendants than
did the remaining claims. Consequently, consideration
of the new and remaining claims together may well
have caused confusion in the proceedings, particularly
for the jury. Cf. In re Ben E. Keith Co., 198 S.W.3d
844, 854 (Tex. App.—Fort Worth 2006, orig. proceeding) (holding trial court erred in refusing to sever
claims due in part to likely jury confusion resulting if
the claims were tried together). Under these circumstances, we cannot say that the trial court abused its
discretion in severing the claims. See Morello, 547
S.W.3d at 889. Accordingly, we overrule the Collinses’
sixth issue.
VI.

Exclusion of Evidence

Lastly, in their seventh issue, the Collinses contend that the trial court erred “when it prevented [the
Collinses] from admitting certified complete official
government maps into evidence.” In support, the Collinses first assert that the trial court granted a portion
of D.R. Horton’s motion in limine in which it asked
the court to exclude certain government records that

App. 18
referenced the Sieberman survey.10 A trial court’s grant
or denial of a motion in limine, however, does not preserve error concerning the admission or exclusion of
evidence. Ferguson v. Plaza Health Servs. at Edgemere,
No. 05-12-01399-CV, 2014 WL 3401116, at *2 (Tex.
App.—Dallas July 10, 2014, pet. denied) (mem. op.); see
also Westview Drive Invs., LLC v. Landmark Am. Ins.
Co., 522 S.W.3d 583, 600 (Tex. App.—Houston [14th
Dist.] 2017, pet denied) (“By such an order, the trial
court neither admits nor excludes evidence, but merely
requires a party to obtain the trial court’s permission,
at the bench or otherwise outside of the jury’s presence,
before asking potentially prejudicial questions or introducing potentially prejudicial evidence.”).
To preserve error for the exclusion of evidence after a motion in limine has been granted, a party must,
during trial: (1) approach the bench and ask for a ruling, (2) formally offer the evidence, and (3) obtain a ruling on the offer. Ferguson, 2014 WL 3401116, at *2. If,
at that time, the court rules the evidence inadmissible,
the party must further preserve the evidence through
an offer of proof. Id. The fact that the trial court may
have granted a particular portion of D.R. Horton’s motion in limine therefore did not preserve the exclusion
of the evidence for our review.
The Collinses additionally provide two citations to
the reporter’s record regarding the alleged exclusion of
10

The Collinses do not cite to where in the record the trial
court granted a motion in limine pertaining to the documents in
question.

App. 19
this evidence. The first citation is to a discussion occurring before trial began, wherein the Collinses’ counsel
expressly agreed that certain exhibits pertaining to
the Sieberman survey were intended only as an offer
of proof and were not being offered into evidence for
trial purposes—the issue of the Sieberman survey having been disposed of by the partial summary judgment.
At the second citation, D.R. Horton’s counsel objected apparently because he thought that Dr. Collins
was about to testify that a particular line on an admitted exhibit referenced the Sieberman survey. Far
from arguing that Dr. Collins should be permitted to
so testify, the Collinses’ lawyer apologized to the court
and reminded Dr. Collins not to testify about the
Sieberman survey.11 The exhibit itself was admitted.
The Collinses do not cite to any other place in the
record for [sic] where they offered the allegedly excluded
documents into evidence and obtained an adverse ruling. Accordingly, they have not preserved this issue
for our review. See id.; see also Indus. III, Inc. v. Burns,
No. 14-13-00386-CV, 2014 WL 4202495, at *12 (Tex.
App.—Houston [14th Dist.] Aug. 26, 2014, pet. denied)
(mem. op.) (“To preserve error concerning the exclusion
of evidence, the complaining party must actually offer
the evidence or a summary of the evidence and secure
an adverse ruling from the court.”). We overrule the
seventh issue.
11

Counsel stated: “I have instructed Dr. Collins not to bring
this up, and I’ll ask him once again, please don’t say that. So I
apologize to that extent.”

App. 20
We affirm the trial court’s judgment.
/s/ Martha Hill Jamison
Justice
Panel consists of Justices Jamison, Wise, and Jewell.

App. 21
December 20, 2018
[SEAL]
JUDGMENT
The Fourteenth Court of Appeals
-----------------------------------------------------------------------

JAMES K. COLLINS AND
TONI SHARRETTS COLLINS, Appellants
NO. 14-17-00764-CV

V.

D.R. HORTON-TEXAS LTD, Appellee
-----------------------------------------------------------------------

This cause, an appeal from the judgment in favor
of appellee, DR. Horton-Texas LTD, signed June 9,
2017, was heard on the transcript of the record. We
have inspected the record and find no error in the
judgment. We order the judgment of the court below
AFFIRMED.
We order appellants, James K. Collins and Toni
Sharretts Collins, jointly and severally, to pay all costs
incurred in this appeal.
We further order this decision certified below for
observance.

App. 22
[SEAL]
Fourteenth Court of Appeals
301 Fannin, Suite 245
Houston, Texas 77002
Justices
TRACY CHRISTOPHER
KEN WISE
KEVIN JEWELL
FRANCES BOURLIOT
JERRY ZIMMERER
CHARLES A. SPAIN
MEAGAN HASSAN
MARGARET “MEG” POISSANT

Chief Justice
KEM THOMPSON FROST
Clerk
CHRISTOPHER A. PRINE
PHONE 713-274-2800

Thursday, March 28, 2019
Paul J. McConnell, III
De Lange, Hudspeth,
McConnell & Tibbets, LLP
1177 West Loop South,
Suite 1700
Houston, TX 77027
* DELIVERED VIA E-MAIL *
RE:

Toni Lynn Thompson
Sharretts
11054 North Hidden
Oaks
Conroe, TX 77384
* DELIVERED VIA
E-MAIL *

Court of Appeals Number: 14-17-00764-CV
Trial Court Case Number: 15-04-04236-CV

Style: James K. Collins and Toni Sharretts Collins
v.
D.R. Horton-Texas LTD
Please be advised that on this date the Court DENIED APPELLANT’S motion for rehearing in the
above cause.

App. 23
Panel Consists of Justice Wise and Jewell
Sincerely,
/s/ Christopher A. Prine, Clerk
cc: Richard Travis Piper (DELIVERED VIA E-MAIL)
Ben A. Baring, Jr. (DELIVERED VIA E-MAIL)

App. 24
Cause No. 15-04-04236-CV
D.R. HORTON – TEXAS, LTD §
V.

§
JAMES K. COLLINS, M.D.
and TONI SHARRETTS
§
COLLINS
§

IN THE DISTRICT
COURT OF
MONTGOMERY
COUNTY, TEXAS
284TH JUDICIAL
DISTRICT

FINAL JUDGMENT
(Filed Jun. 9, 2017)
On March 13, 2017, this cause came on to be heard
and D.R. HORTON - TEXAS, LTD. (“Horton”), the
plaintiff, appeared in person and by attorney and announced ready for trial. The defendants, JAMES K.
COLLINS, M.D. and TONI SHARRETTS COLLINS
(“Defendants”) appeared in person and by attorney
and filed a motion for reconsideration of their motion
for continuance. The motion for reconsideration was
denied and Defendants announced ready for trial.
Previously, on March 9, 2017, the Court granted
Horton’s motion for severance of certain of Defendants’
counterclaims and claims against other parties, the
Court severing the Defendants’ claims for spoliation of
evidence, trespass, conversion, and malicious prosecution, and ordered that such claims be re-docketed under Cause Number 17-03-03620-CV in the 284th
Judicial District Court, Montgomery County, Texas in
a case styled James K. Collins, MD. and Toni Sharretts
Collins v. D.R. Horton-Texas, Ltd, D. R. Horton, Inc.,

App. 25
Charles Matthew Carr, Angelica Galczynski, David
Randy Schweyher, and Sgt. J P. Gonzalez. In addition,
Defendants filed an objection to the assignment of the
Hon. Carolyn Marks Johnson as a visiting judge to
hear this case, but such objection was overruled as it
was not made timely.
A jury having been demanded, a jury consisting of
twelve qualified jurors was duly empaneled and the
case proceeded to trial. At the conclusion of the evidence, all questions of fact were submitted to the jury
by the Court’s charge. After deliberation, the jury returned its verdict by answering the questions of fact in
the charge. The Court’s charge and the answers of the
Jury to the questions therein and the Jury’s verdict are
attached as Exhibit “A” hereto and incorporated
herein.
The Court, based on the jury’s findings or after
hearing the evidence and arguments of counsel] [CMJ]
is of the opinion that the plaintiff is entitled to the following judgment:
IT IS ORDERED that Affidavit of Adverse Possession filed of record by Defendants in the Official Public
Records of Montgomery County, Texas under Document Number 2015018297 is invalid and of no force
and effect and the same is hereby declared to be null,
void, canceled and discharged of record.
IT IS FURTHER ORDERED that the title to the
real property described in Exhibit “B” attached hereto
is quieted in D.R. HORTON - TEXAS, LTD.

App. 26
IT IS FURTHER ORDERED It is further ORDERED, [CMJ] ADJUDGED, and DECREED that
JAMES K. COLLINS, M.D. and TONI SHARRETTS
COLLINS, and each of them, and those acting in concert with them, are hereby permanently enjoined from
interfering in any way with Plaintiffs use and occupancy of the property described in Exhibit B.
The interlocutory summary judgment signed on
November 8, 2016, that Defendants take nothing on
their claims relating in any manner to the Frederick
Sieberman Survey, Abstract No. 497, Montgomery
County, Texas, is incorporated herein by reference and
is hereby made final.
All costs of court expended or incurred in this
cause are taxed against Defendants. All writs and processes for the enforcement and collection of this judgment or the costs of court may issue as necessary. All
relief not expressly granted is denied.
SIGNED on June 9, 2017.
/s/ Carolyn Marks Johnson
CAROLYN MARKS JOHNSON
Judge Presiding, Sitting on
as 284th District Court of
Montgomery County, Texas
[assigned]

App. 27
Cause No. 15-04-04236-CV
D.R. HORTON - TEXAS, LTD §
V.

§
JAMES K. COLLINS, M.D.
and TONI SHARRETTS
§
COLLINS
§

IN THE DISTRICT
COURT OF
MONTGOMERY
COUNTY, TEXAS
284TH JUDICIAL
DISTRICT

CHARGE OF THE COURT
MEMBERS OF THE JURY:
After the closing arguments, you will go to the jury
room to decide the case, answer the questions that are
attached, and reach a verdict. You may discuss the case
with other jurors only when you are all together in the
jury room.
Remember my previous instructions: Do not discuss the case with anyone else, either in person or by
any other means. Do not do any independent investigation about the case or conduct any research. Do not
look up any words in dictionaries or on the Internet.
Do not post information about the case on the Internet.
Do not share any special knowledge or experiences
with the other jurors. Do not use your phone or any
other electronic device during your deliberations for
any reason.
Any notes you have taken are for your own personal use. You may take your notes back into the jury
room and consult them during deliberations, but do not

App. 28
show or read your notes to your fellow jurors during
your deliberations. Your notes are not evidence. Each
of you should rely on your independent recollection of
the evidence and not be influenced by the fact that another juror has or has not taken notes.
You must leave your notes with the bailiff when
you are not deliberating. The bailiff will give your notes
to me promptly after collecting them from you. I will
make sure your notes are kept in a safe, secure location
and not disclosed to anyone. After you complete your
deliberations, the bailiff will collect your notes. When
you are released from jury duty, the bailiff will
promptly destroy your notes so that nobody can read
what you wrote.
Here are the instructions for answering the questions.
1. Do not let bias, prejudice, or sympathy play
any part in your decision.
2. Base your answers only on the evidence admitted in court and on the law that is in these instructions and questions. Do not consider or
discuss any evidence that was not admitted in the
courtroom.
3. You are to make up your own minds about the
facts. You are the sole judges of the credibility of
the witnesses and the weight to give their testimony. But on matters of law, you must follow all of
my instructions.
4. If my instructions use a word in a way that is
different from its ordinary meaning, use the

App. 29
meaning I give you, which will be a proper legal
definition.
5. All the questions and answers are important.
No one should say that any question or answer is
not important.
6. Answer “yes” or “no” to all questions unless
you are told otherwise. A “yes” answer must be
based on a preponderance of the evidence unless
you are told otherwise. Whenever a question requires an answer other than “yes” or “no,” your answer must be based on a preponderance of the
evidence unless you are told otherwise.
The term “preponderance of the evidence”
means the greater weight of credible evidence presented in this case. If you do not find that a preponderance of the evidence supports a “yes”
answer, then answer “no.” A preponderance of the
evidence is not measured by the number of witnesses or by the number of documents admitted in
evidence. For a fact to be proved by a preponderance of the evidence, you must find that the fact is
more likely true than not true.
A fact may be established by direct evidence
or by circumstantial evidence or both. A fact is established by direct evidence when proved by documentary evidence or by witnesses who saw the act
done or heard the words spoken. A fact is established by circumstantial evidence when it may be
fairly and reasonably inferred from other facts
proved.
7. Do not decide who you think should win before
you answer the questions and then just answer

App. 30
the questions to match your decision. Answer each
question carefully without considering who will
win. Do not discuss or consider the effect your answers will have.
8. Do not answer questions by drawing straws or
by any method of chance.
9. Some questions might ask you for a dollar
amount. Do not agree in advance to decide on a
dollar amount by adding up each juror’s amount
and then figuring the average.
10. Do not trade your answers. For example, do
not say, “I will answer this question your way if
you answer another question my way.”
11. Unless otherwise instructed, the answers to
the questions must be based on the decision of at
least ten of the twelve jurors. The same ten jurors
must agree on every answer. Do not agree to be
bound by a vote of anything less than ten jurors,
even if it would be a majority.
As I have said before, if you do not follow these instructions, you will be guilty of juror misconduct, and I
might have to order a new trial and start this process
over again. This would waste your time and the parties’ money, and would require the taxpayers of this
county to pay for another trial. If a juror breaks any of
these rules, tell that person to stop and report it to me
immediately.

App. 31
Definitions and Instructions
The “Subject Tract” means a tract of land in Montgomery County, Texas described as:
BEGINNING AT THE SOUTHEAST CORNER OF THE LAKE CREEK FOREST
SECTION ONE, A SUBDIVISION IN MONTGOMERY COUNTY, TEXAS, ACCORDING
TO THE MAP OR PLAT THEREOF RECORDED IN CABINET C, SHEET 31-B OF
THE MAP RECORDS OF MONTGOMERY
COUNTY, TEXAS, THENCE NORTH 89 DEGREES, 18 MINUTES, 44 SECONDS EAST,
A DISTANCE OF 1092.8 FEET TO A 5/8TH
IRON ROD AT THE NORTHEAST CORNER
OF LOT 2, IN BLOCK 1, OF THE RED OAK
RANCH, SECTION ONE (1), A SUBDIVISION IN THE DAVID THOMAS SURVEY,
A-550, MONTGOMERY COUNTY, TEXAS,
ACCORDING TO THE MAP OR PLAT
THEREOF RECORDED IN CABINET I,
SHEET 200 OF THE MAP RECORDS OF
MONTGOMERY COUNTY, TEXAS; THENCE
NORTH 3 DEGREES, 10 MINUTES AND 41
SECONDS WEST, A DISTANCE OF 100
FEET; THENCE SOUTH 89 DEGREES, 18
MINUTES, 44 SECONDS WEST, A DISTANCE OF 1085 FEET TO A POINT ON THE
EASTERN BORDER OF THE LAKE CREEK
FOREST, SECTION ONE, A SUBDIVISION
IN MONTGOMERY COUNTY, TEXAS, ACCORDING TO THE MAP OF PLAT
THEREOF RECORDED IN CABINET C,
SHEET 31-B OF THE MAP RECORDS OF
MONTGOMERY COUNTY, TEXAS; AND

App. 32
THENCE SOUTH ALONG THE EASTERN
BORDER OF THE LAKE CREEK FOREST,
SECTION ONE, A SUBDIVISION IN MONTGOMERY COUNTY, TEXAS, ACCORDING
TO THE MAP OF PLAT THEREOF RECORDED IN CABINET C, SHEET 31-B OF
THE MAP RECORDS OF MONTGOMERY
COUNTY, TEXAS, A DISTANCE OF 100
FEET TO THE POINT OF BEGINNING, BEING A TOTAL OF 2.4985 ACRES, MORE OR
LESS.
QUESTION 1
Did James K. Collins, M.D. and Toni Sharretts
Collins hold the Subject Tract in peaceable and adverse possession under title or color of title for a period
of three years prior to April 27, 2015?
“Adverse possession” means:
a)

an actual and visible appropriation of real
property;

b)

commenced and continued under a claim of
right that is inconsistent with and hostile to
the claim of another person.

“Peaceable possession” means possession of real
property that is continuous and is not interrupted by
an adverse suit to recover the property.
“Color of title” means a consecutive chain of transfers to the person in possession that is not regular because of a muniment that is not properly recorded or is

App. 33
only in writing or because of a similar defect that does
not lack intrinsic fairness or honesty.
“claim of right” means an intention to claim the
real property as one’s own to the exclusion of all others.
A claim of right is “hostile” only if either
a)

it provides notice, either actual or by implication, of a hostile claim of right to the true
owner; or

b)

the acts performed on the real property, and
the use made of the real property, were of such
a nature and character that would reasonably
notify the true owner of the real property that
a hostile claim is being asserted to the property.

Answer “Yes” or “No.”
Answer: NO
QUESTION 2
Did James K. Collins, M.D. hold the Subject Tract
in peaceable and adverse possession for a period of ten
years prior to April 27, 2015?
“Peaceable possession” means possession of real
property that is continuous and is not interrupted by
an adverse suit to recover the property.
“Adverse possession” means:
a)

an actual and visible appropriation of real
property;

App. 34
b)

commenced and continued under a claim of
right that is inconsistent with and hostile to
the claim of another person.

“Claim of right” means an intention to claim the
real property as one’s own to the exclusion of all others.
A claim of right is “hostile” only if either
a)

it provides notice, either actual or by implication, of a hostile claim of right to the true
owner; or

b)

the acts performed on the real property, and
the use made of the real property, were of such
a nature and character that would reasonably
notify the true owner of the real property that
a hostile claim is being asserted to the property.

For this question, to establish peaceable and adverse possession, a claimant must also have cultivated,
used, or enjoyed the property.
Answer “Yes” or “No.”
Answer: NO
If you answered “No” to Question 1 and “No” to
Question 2, then answer Question 3. Otherwise, do not
answer Question 3.
QUESTION 3
Did James K. Collins, M.D. or Toni Sharretts Collins trespass on D.R. Horton-Texas, Ltd.’s property?

App. 35
“Trespass” means an entry on the property of another without having consent or authorization of the
owner. To constitute trespass, entry upon another’s
property need not be in person, but may be made by
causing or permitting a thing to cross the boundary of
the property.
Answer “Yes” or “No” for those named below:
James K. Collins, M.D.

Yes

Toni Sharretts Collins

Yes

Presiding Juror:
1. When you go into the jury room to answer the
questions, the first thing you will need to do is
choose a presiding juror.
2.

The presiding juror has these duties:
a. have the complete charge read aloud if it
will be helpful to your deliberations;
b. preside over your deliberations, meaning
manage the discussions, and see that you follow these instructions;
c. give written questions or comments to the
bailiff who will give them to the judge;
d.

write down the answers you agree on;

e. get the signatures for the verdict certificate; and
f. notify the bailiff that you have reached a
verdict.

App. 36
Do you Understand the duties of the presiding juror?
If you do not, please tell me now.
Instructions for Signing the Verdict Certificate:
1. Unless otherwise instructed, you may answer the questions on a vote of ten jurors. The
same ten jurors must agree on every answer in the
charge. This means you may not have one group of
ten jurors agree on one answer and a different
group of ten jurors agree on another answer.
2. If ten jurors agree on every answer, those
ten jurors sign the verdict.
If eleven jurors agree on every answer, those
eleven jurors sign the verdict.
If all twelve of you agree on every answer, you
are unanimous and only the presiding juror signs
the verdict.
3. All jurors should deliberate on every
question. You may end up with all twelve of you
agreeing on some answers, while only ten or
eleven of you agree on other answers. But when
you sign the verdict, only those ten who agree on
every answer will sign the verdict.
Do you understand these instructions? If you do not,
please tell me now.
/s/ Carolyn Marks Johnson
JUDGE PRESIDING
[assigned]

App. 37
Verdict Certificate
Check one:
____ Our verdict is unanimous. All twelve of us have
agreed to each and every answer. The presiding juror
has signed the certificate for all twelve of us.
_______________________
Signature of Presiding
Juror

_________________________
Printed Name of Presiding
Juror

____ Our verdict is not unanimous. Eleven of us have
agreed to each and every answer and have signed the
certificate below.
X Our verdict is not unanimous. Ten of us have
agreed to each and every answer and have signed the
certificate below.
Signature

Name Printed

1. /s/ John W. Robinson

John W. Robinson

2. /s/ Valeria R. Ahlers

Valeria R. Ahlers

3. /s/ Anne T. LeBlanc

Anne T. LeBlanc

4. /s/ Renea Rolan

Renea Rolan

5. /s/ Freddie Garza

Freddie Garza

6. /s/ Randy Calhoun

Randy Calhoun

7. /s/ Bruce Herndon

Bruce Herndon

App. 38
8. /s/ Tracy Brainerd

Tracy Brainerd

9. /s/ Susan A. Huff

Susan A. Huff

10. /s/ Richard Zoinfeld

Richard Zoinfeld

11.
METES AND BOUNDS DESCRIPTION
TRACT 1
750.7 ACRES
IN THE JAMES HODGE SURVEY,
ABSTRACT NO. 19
MONTGOMERY COUNTY, TEXAS
DESCRIPTION OF A 750.7 ACRE TRACT OF
LAND SITUATED IN THE JAMES HODGE SURVEY. ABSTRACT NO. 19. MONTGOMERY
COUNTY, TEXAS, BEING THAT CERTAIN
TRACT OF LAND CALLED 750.354 ACRES AS
DESCRIBED IN DEED TO MADELEY INTERESTS LTD. III RECORDED UNDER MONTGOMERY COUNTY CLERK’S FILE (M.C.C.F.) No.
2002-015834 AND No. 2002-015835 OF THE OFFICIAL PUBLIC RECORDS OF REAL PROPERTY; MORE PARTICULARLY DESCRIBED BY
METES AND BOUNDS AS FOLLOWS, (BEARINGS BASED ON THE TEXAS STATE PLANE
COORDINATE SYSTEM OF 1983, CENTRAL
ZONE, AS DETERMINED BY GPS MEASUREMENTS):
BEGINNING at a 5/8-inch capped iron rod
stamped “EHRA 713-784-4500” set marking the
southwesterly corner of the called 750.354 acre

App. 39
tract, being in the northerly line of the Block 1 of
Red Oak Ranch Section One, as per plat recorded
in Cabinet I, Sheet 200 of the Montgomery County
Map Records (M.C.M.R.), from which a 1/4-inch
iron rod found marking the southeast corner of
Lake Creek Forest Section One, as per plat recorded in Cabinet C, Sheet 31A of the M.C.M.R.,
bears North 03°50' West, 0.29 feet;
(1)

THENCE, North 03°50'49" West, along the east
line of said Lake Creek Forest Section One for
a distance of 1,484.44 feet to a 5/8-inch iron
rod found for corner;

(2)

THENCE, North 03°40'21" West, continuing
along the east line of said Lake Creek Forest
Section One for a distance of 1,469.00 feet to
a point for corner from which a bent 5/8-inch
iron rod was found South 01°30' East, 0.40
feet;

(3)

THENCE, North 03°42'28" West, continuing
along the east line of said Lake Creek Forest
Section One for a distance of 1,320.61 feet to
a point for corner from which a 1/2-inch
capped iron rod stamped “Jeff Moon RPLS
4639” was found South 87°14' West, 0.15 feet;

(4)

THENCE, North 03°53'51" West, continuing
along the east line of said Lake Creek Forest
Section One, passing at 1,801.32 feet a 5/8inch capped iron rod stamped “EHRA 713784-4500” set for reference and continuing for
a total distance of 1901.32 feet to a point for
corner set in the centerline of the bed of Lake
Creek;

App. 40
THENCE, along the meanders of the centerline
of Lake Creek the following seventy one (71)
courses and distances:
(5)

THENCE, North 61°32'51" East for a distance of
228.05 feet to a point for corner;

(6)

THENCE, North 54°58'17" East for a distance of
92.46 feet to a point for corner;

(7)

THENCE, North 51°58'09" East for a distance of
259.16 feet to a point for corner;

(8)

THENCE, North 45°58'35" East for a distance of
159.83 feet to a point for corner;

(9)

THENCE, North 22°01'45" East for a distance of
192.41 feet to a point for corner;

(10)

THENCE North 27°13'37" East for a distance of
76.84 feet to a point for corner;

(11)

THENCE, North 54°56'45" East for a distance of
95.43 feet to a point for corner;

(12)

THENCE, North 67°30'56” East for a distance of
184.27 feet to a point for corner;

(13)

THENCE, North 76°56'09" East for a distance of
133.56 feet to a point for corner;

(14)

THENCE, North 61°26'41" East for a distance of
177.31 feet to a point for corner;

(15)

THENCE, North 50°22'55" East for a distance of
560.07 feet to a point for corner;

(16)

THENCE, North 37°46'34" East for a distance of
133.00 feet to a point for corner;

App. 41
(17)

THENCE, North 17°21'11" East for a distance of
139.15 feet to a point for corner;

(18)

THENCE, North 00°11'57" East for a distance of
274.14 feet to a point for corner;

(19)

THENCE, North 18°11'55" East for a distance of
116.51 feet to a point for corner;

(20)

THENCE, North 39°54'45" East for a distance of
121.72 feet to a point for corner;

(21)

THENCE, North 48°18'12" East for a distance of
291.99 feet to a point for corner;

(22)

THENCE, North 37°14'21" East for a distance of
92.22 feet to a point for corner;

(23)

THENCE, North 52°07'40" East for a distance of
103.25 feet to a point for corner;

(24)

THENCE, North 55°52'04" East for a distance
or 193.01 feet to a point for corner;

(25)

THENCE, North 72°11'52" East for a distance of
110.77 feet to a point for corner;

(26)

THENCE, South 83°08'03" East for a distance of
92.11 feet to a point for corner;

(27)

THENCE, South 65°53'48" East for a distance of
84.92 feet to a point for corner;

(28)

THENCE, South 07°21'08" East for a distance of
107.07 feet to a point for corner;

(29)

THENCE, South 21°25'57" West for a distance
of 121.20 feet to a point for corner;

(30)

THENCE, South 33°41'30" West for a distance
of 76.93 feet to a point for corner;

App. 42
(31)

THENCE, South 42°09'05" West for a distance
of 131.48 feet to a point for corner;

(32)

THENCE, South 45°03'47" West for a distance
of 122.62 feet to a point for corner;

(33)

THENCE, South 00°26'36" East for a distance of
102.07 feet to a point for corner;

(34)

THENCE, South 42°26'12" East for a distance of
73.01 feet to a point for corner;

(35)

THENCE, North 76°53'20" East for a distance of
70.93 feet to a point for corner;

(36)

THENCE, North 61°57'33" East for a distance of
100.10 feet to a point for corner;

(37)

THENCE, North 86°49'59" East for a distance of
57.05 feet to a point for corner;

(38)

THENCE, North 68°06'00" East for a distance of
111.11 feet to a point for corner;

(39)

THENCE, North 82°41'26" East for a distance of
271.58 feet to a point for corner;

(40)

THENCE, South 88°01'13" East for a distance of
114.27 feet to a point for corner;

(41)

THENCE, South 89°46'09" East for a distance of
178.21 feet to a point for corner;

(42)

THENCE, North 80°49'21" East for a distance of
72.20 feet to a point for corner;

(43)

THENCE, North 53°06'35" East for a distance of
162.69 feet to a point for corner;

(44)

THENCE, North 19°32'42" East for a distance of
160.09 feet to a point for corner;

App. 43
(45)

THENCE, North 08°47'46" East for a distance of
217.65 feet to a point for corner;

(46)

THENCE, North 15°27'20" East for a distance of
137.74 feet to a point for corner;

(47)

THENCE, North 26°41'07" West for a distance
of 117.15 feet to a point for corner;

(48)

THENCE, North 75°30'38" West for a distance
of 63.48 feet to a point for corner;

(49)

THENCE, South 77°51'34" West for a distance
of 111.84 feet to a point for corner;

(50)

THENCE, South 67°14'55" West for a distance
of 126.55 feet to a point for corner;

(51)

THENCE, North 84°16'56" West for a distance
of 92.33 feet to a point for corner;

(52)

THENCE, North 54°36'56" West for a distance
of 76.80 feet to a point for corner;

(53)

THENCE, North 03°40'47" East for a distance of
69.88 feet to a point for corner;

(54)

THENCE, North 33°55'57" East for a distance of
73.92 feet to a point for corner;

(55)

THENCE, North 24°18'23" East for a distance of
83.75 feet to a point for corner;

(56)

THENCE, North 34°13'45" East for a distance of
249.15 feet to a point for corner;

(57)

THENCE, North 15°29'51" East for a distance of
133.40 feet to a point for corner;

(58)

THENCE, North 11°47'44" West for a distance
of 56.19 feet to a point for corner;

App. 44
(59)

THENCE, North 29°33'33" West for a distance
of 146.29 feet to a point for corner;

(60)

THENCE, North 03°43'48" East for a distance of
94.06 feet to a point for corner;

(61)

THENCE, North 29°17'22" East for a distance of
162.93 feet to a point for corner;

(62)

THENCE, North 53°15'42" East for a distance of
177.88 feet to a point for corner;

(63)

THENCE, North 69°38'07" East for a distance of
195.39 feet to a point for corner;

(64)

THENCE, North 61°42'03" East for a distance of
101.33 feet to a point for corner;

(65)

THENCE, North 36°58'24" East for a distance of
91.65 feet to a point for corner;

(66)

THENCE, North 11°57'27" East for a distance of
58.01 feet to a point for corner;

(67)

THENCE, North 24°42'40" West for a distance
of 51.98 feet to a point for corner;

(68)

THENCE, North 56°16'37" West for a distance
of 44.55 feet to a point for corner;

(69)

THENCE, North 26°28'19" West for a distance
of 40.47 feet to a point for corner;

(70)

THENCE, North 12°06'49" East for a distance of
64.65 feet to a point for corner;

(71)

THENCE, North 12°35'21" East for a distance of
126.74 feet to a point for corner;

(72)

THENCE, North 51°10'24" East for a distance of
62.70 feet to a point for corner;

App. 45
(73)

THENCE, North 66°13'52" East for a distance of
130.17 feet to a point for corner;

(74)

THENCE, North 87°14'06" East for a distance of
36.35 feet to a point for corner;

(75)

THENCE, South 77°13'16" East for a distance of
50.39 feet to a point for corner in the line of
the called 750.354 acre tract and the westerly
line of a called 72.168 acre tract of land described in M.C.C.F., No. 2002-015839 and a
called 31.770 acre tract of land described in
M.C.C.F. No. 2010074246;

(76)

THENCE, South 03°44'24" East, along the east
line of the called 750.354 acre tract and the
westerly line of the called 31.770 acre tract,
Passing at 300.0 feet a 5/8-inch iron rod set for
reference, passing at 1,794.90 feet a 5/8-inch
iron rod found 1.7 feet west of line, passing at
3,896.04 feet a 1/2-inch capped iron rod
stamped “C&C” found 0.6 feet east of line
marking the westerly common corner of a
called 30.0825 acre tract of land described in
M.C.C.F. No. 2010024246 and a called 5.716
acre tract of land described in M.C.C.F. No.
2007-064306, passing at 4,294.96 feet a 1/2inch iron rod found 1.4 feet east of line marking the northwesterly common corner of a
called 3.105 acre tract of land described in
M.C.C.F. No. 2007-004078, passing at
5,134.99 feet a 1/2-inch iron rod found 0.9 feet
west of line marking the westerly common
corner of a called 7.9490 acre tract of land described in M.C.C.F. No. 2005-047884 and a
called 10.188 acre tract of land described in

App. 46
M.C.C.F. No. 2005-047802, passing at
6,193.39 feet a 1/2-inch iron rod found 1.0 feet
east of line marking the westerly common corner of a called 4.467 acre tract of land described in M.C.C.F. No. 2007-015113 and a
called 5.585 acre tract of land described in
M.C.C.F. No. 9131267, passing at 6,543.21 feet
a 1/2-inch capped iron rod stamped “Laughin”
found marking the westerly common corner of
a called 5.585 acre tract of land described in
M.C.C.F. No. 9131267 and a called 5.942 acre
tract of land described in M.C.C.F. No. 2001049736 from which a 1/2-inch iron rod was
found east, 2.8 feet, and continuing for a total
distance of 7,630.37 feet to a 1/4-inch iron rod
found marking the westerly common corner of
a called 7.232 acre tract of land described in
M.C.C.F. No. 2001-049736 and a called 5.00
acre tract of land described in M.C.C.F. No.
8543874;
(77)

THENCE, South 03°51'13" East, along the westerly line of said 5.00 acre tract of land for a
distance of 626.02 feet to a point for corner in
the northwesterly right-of-way line of Old
Conroe-Magnolia Road (based on a width of
60-feet as occupied) from which a 1/2-inch
capped iron rod stamped “Jeff Moon RPLS
4639” was found North 47°22" East, 0.25 feet;

(78)

THENCE, South 44°51'15" West, along the
northwesterly right-of-way line of Old
Conroe-Magnolia Road for a distance of
1,973.37 feet to a 1/2-inch capped iron rod
stamped “Jeff Moon RPLS 4639” found for corner;

App. 47
(79)

THENCE, South 45°14'26" West, continuing
along the northwesterly right-of-way line of
Old Conroe-Magnolia Road for a distance of
1,055.36 feet to a point for corner in the northerly line of a called 5.66 acres described in
M.C.C.F. No. 2006-100222 from which a 5/8inch iron rod was found South 86°07' East,
0.28 feet;

(80)

THENCE, South 86°49'19" East, along the northerly line of said 5.66 acre tract, passing at a
distance of 1,076.10 feet a 5/8-inch iron rod
found marking the northerly common of a
called 5.01 acre tract of land described in
M.C.C.F. No. 5843267 and the northeasterly
corner of the aforementioned Block 1 of Red
Oak Ranch Section One, and continuing along
the northerly line of said Block 1 of Red Oak
Ranch Section One for a total distance of
2,168.57 feet to the POINT OF BEGINNING
and containing 750.7 acres of land. This description accompanies a Land Title Survey
prepared by Edminster, Hinshaw, Russ and
Associates, Inc. dated November 19, 2012.

EDMINSTER, HINSHAW, RUSS & ASSOCIATES,
INC d/b/a EHRA
/s/ Robert L. Boelsche
Robert L. Boelsche, R.P.L.S.
Texas Registration No. 4446
10555 Westoffice Drive
Houston, Texas 77042
713-784-4500

[SEAL]

App. 48
Date:
Job No.
File No.

11/19/2017
171-079-00
[Illegible]

METES AND BOUNDS DESCRIPTION
TRACT 2
42.02 ACRES
IN THE JAMES HODGE SURVEY,
ABSTRACT NO. 19
MONTGOMERY COUNTY, TEXAS
DESCRIPTION OF A 42.02 ACRE TRACT OF
LAND SITUATED IN THE JAMES HODGE SURVEY, ABSTRACT NO. 19, MONTGOMERY
COUNTY, TEXAS, BEING OUT OF THAT CERTAIN TRACT OF LAND CALLED 48.939 ACRES
AS DESCRIBED IN DEED TO MADELEY INTERESTS LTD. III RECORDED UNDER MONTGOMERY COUNTY CLERK’S FILE (M.C.C.F.)
No. 2002-015834 AND No. 2002-15835 OF THE
OFFICIAL PUBLIC RECORDS OF REAL PROPERTY; SAID 42.02 ACRE TRACT BEING MORE
PARTICULARLY DESCRIBED BY METES AND
BOUNDS AS FOLLOWS, (BEARINGS BASED
ON THE TEXAS STATE PLANE COORDINATE
SYSTEM OF 1983, CENTRAL ZONE, AS DETERMINED BY GPS MEASUREMENTS):
BEGINNING at a 5/8-inch capped iron rod
stamped “EHRA 713-784-4500” set marking the
southwesterly corner of a called 7.9838 acre tract
described in M.C.C.F. No. 2008-034303 and being
in the northerly line of the Block 2 of Red Oak
Ranch Section One, as per plat recorded in

App. 49
Cabinet I, Sheet 200 of the Montgomery County
Map Records (M.C.M.R.):
(1)

THENCE, South 86°02'11" West, along the northerly line of said Block 2 of Red Oak Ranch
Section One for a distance of 599.11 feet to a
fence post found for corner;

(2)

THENCE, South 85°00'17" West, continuing
along the northerly line of said Red Oak
Ranch Section One, passing at 440.25 feet 5/8inch iron rod found marking the northwesterly corner of said Block 2 and the northeasterly corner of a called 8.04 acre tract described
to M.C.C.F. No. 9844236, and continuing along
the northerly line of said 8.04 acre tract for a
total distance of 582.25 feet to a fence post
found for corner;

(3)

THENCE, South 89°19'14" West, along the northerly line of said 8.04 acre tract for a distance
of 46.24 feet to a 5/8-inch capped iron rod
stamped “EHRA 713-784-4500” set for corner
in the southwesterly line of a 50-foot wide
easement granted to Sinclair Pipe Line Company in Volume 431-Page 424, Volume 431Page 428, Volume 431-Page 434, Volume 434Page 458 and Volume 434-Page 452 of the
Montgomery County Deed Records;

(4)

THENCE, North 25°50'15" West, along the
southwesterly line of said Sinclair easement
for a distance of 407.11 feet to a 5/8-inch
capped iron rod stamped “EHRA 713-7844500” set marking an angle point;

App. 50
(5)

THENCE, North 27°01'15" West, continuing
along the southwesterly line of said Sinclair
easement, a distance of 281.17 feet to a 5/8inch capped iron rod stamped “EHRA 713784-4500” set for corner in the southeasterly
right-of-way line of Old Conroe-Magnolia
Road (based on a width of 60-feet as occupied);

(6)

THENCE, North 45°14'26" East, along the
southeasterly right-of-way line the of Old
Conroe-Magnolia Road for a distance of 62.40
feet to a 1/2-inch capped iron rod stamped
“Jeff Moon RPLS 4639” found for corner;

(7)

THENCE, North 44°51'15" East, continuing
along the southeasterly right-of-way line of
Old Conroe-Magnolia Road for a distance of
1,920.88 feet to a point for corner in the westerly line of a called 60-foot wide roadway easement described in Volume 676, Page 842 of the
Montgomery County Deed Records from
which a 1/2-inch iron rod was found North
43°09' East, 0.45 feet;

(8)

THENCE, South 03°51'13" East, along the westerly line of said 60-foot wide roadway easement, a distance of 1,934.27 feet to the POINT
OF BEGINNING and containing 42.02 acres
of land. This description accompanies a Land
Title Survey prepared by Edminster, Hinshaw, Russ and Associates. Inc. dated November 19, 2012 and revised December 05, 2012.

App. 51
CAUSE NO. 15-04-04236
D. R. HORTON – TEXAS, LTD. § IN THE DISTRICT COURT OF
§
PLAINTIFF
MONTGOMERY COUNTY,
§
TEXAS
VS.
§
284TH JUDICIAL
§
JAMES K. COLLINS, M.D.
DISTRICT
§
AND TONI SHARRETS,
§
DEFENDANTS
§
ORDER GRANTING D. R. HORTON’S
MOTION FOR PARTIAL SUMMARY JUDGMENT
The Court has considered the motion for partial
summary judgment filed by D. R. Horton on the Sieberman Survey Issue, and having considered said motion,
and Defendants’ response, and being of the opinion
that said motion is with merit and should be granted,
it is therefore
ORDERED that Plaintiff, D.R. Horton–Texas,
Ltd.’s motion for partial summary judgment be, and
the same is hereby, GRANTED.
It is further ORDERED that Defendants take
nothing on their claims related in any manner to the
Frederick Sieberman Survey A-497, Montgomery
County, Texas.
Signed: 11/8/2016 11:23 AM
SIGNED this 8 day of November, 2016.
/s/ Cara Wood
Judge Presiding

App. 52
Approved and Entry Requested:
DE LANGE, HUDSPETH, MCCONNELL
& TIBBETS, L.L.P.
BY: /s/ Ben A. Baring, Jr.
PAUL J. McCONNELL, III
SBN: 13447500
pmcconnell@dhmtlaw.com
BEN A BARING, JR.
bbaring@dhmtlaw.com
SBN: 01739050
R. TRAVIS PIPER
tpiper@dhmtlaw.com
SBN: 24070421
1177 West Loop South, Suite 1700
Houston, Texas 77027
Telephone: 713.871.2000
Facsimile: 713.871.2020
ATTORNEYS FOR PLAINTIFFS

App. 53
FILE COPY
RE: Case No. 19-0397
COA #: 14-17-00764-CV

DATE: 7/26/2019
TC#: 15-04-04236-CV

STYLE: COLLINS v. D.R. HORTON-TEXAS LTD.
Today the Supreme Court of Texas denied the petition for review in the above-referenced case.
MS. TONI L. SHARRETTS
LAW OFFICE OF TONI L. SHARRETTS
COLLINS
11054 NORTH HIDDEN OAKS
CONROE, TX 77387
* DELIVERED VIA E-MAIL *

App. 54
FILE COPY
RE: Case No. 19-0397
COA #: 14-17-00764-CV

DATE: 12/13/2019
TC#: 15-04-04236-CV

STYLE: COLLINS v. D.R. HORTON-TEXAS LTD.
Today the Supreme Court of Texas denied the motion for rehearing of the above-referenced petition for
review.
MS. TONI L. SHARRETTS
LAW OFFICE OF TONI L. SHARRETTS
COLLINS
11054 NORTH HIDDEN OAKS
CONROE, TX 77384 [sic]
* DELIVERED VIA E-MAIL *

App. 55

App. 56

App. 57

App. 58

App. 59
NO. 14-17-00764-CV
IN THE COURT OF APPEALS
FOURTEENTH JUDICIAL DISTRICT OF TEXAS
HOUSTON DIVISION
JAMES K. COLLINS and
TONI SHARRETTS COLLINS,
Appellants
v.
D.R. HORTON-TEXAS, LTD.,
Appellee
ORAL ARGUMENT
June 28, 2018
2:00 p.m.
BEFORE:
The Hon. Martha Hill Jamison
The Hon. Ken Wise
The Hon. Kevin Jewell
APPEARANCES:
Law Office of Toni L. Sharretts Collins
By: Toni L. Sharretts Collins
State Bar No. 24037476
11054 North Hidden Oaks
Conroe, Texas 77483
(281) 827-7749
Appearing on behalf of Appellant

App. 60
Delange, Hudspeth, McConnell & Tibbets
By: Paul J. McConnell, III
State Bar No. 13447500
1177 West Loop South, Suite 1700
Houston, Texas 77027
(713) 871-2000
*

*

*

[9] Collins proved the Sieberman exists with its
perfected superior title from the Source of Texas title:
The General Land Office.
The Texas Supreme Court holds: “Title becomes
perfect with a patent issued by the GLO.” And that’s in
Hamilton v. Avery, 20 SW 612, 630 (Tex. 1857). The patent is the superior legal title to the land issued by the
State of Texas. That’s Patterson v. Peel, 149 S.W.2d 284,
285 (Tex. App. 9th Dist. 1941).
That case holds: “[A] trespasser, [not unlike the
Hodge claimants in Horton), have no standing to assert
a patent that was not issued in accordance with the
law.” Have no standing to assert a patent that was not
issued in accordance with the law.
The Texas Supreme Court further holds that: “A
patent is conclusive against the state government
upon the question as to the issue of the patent. If the
state cannot deny its own act, no one else has the right
to do so for it.” That’s Ney v. Mumme, 17 S.W. 407, 408
(Tex. 1886).

App. 61
[10] There is no conflict that exists between the
mutually exclusive Sieberman Survey and Hodge Survey.
JUSTICE WISE:

What year did you say?

MS. SHARRETTS: 1886. There is no conflict
that exists between the mutually exclusive Sieberman
Survey and Hodge Survey patents per the General
Land Office certified records.
Thus, the Exhibit B that we have before the Court,
the patented GLO records, correctly reflect the survey
boundaries for the mutually exclusive Sieberman and
Hodge surveys.
Hodge only had title evidence, and the source is a
1944 federal judgment. That’s all they gave us. No title
opinion or anything.
It is void as to the Collins and Sieberman because
the necessary parties, the Sieberman owners, were not
joined in the 1941 lawsuit. That resulted in the 1944
judgment.
Despite the GLO evidence of existing survey in
1943, and the deed transactions within the Sieberman
Survey in 1943, contemporaneous with the lawsuit, the
Siebermans were still not joined.
And I’d like to give the Justices an [11] example.
All three of you live next to each other on a street. All
three lots are –
JUSTICE JAMISON: You’re over your time,
so why don’t you skip the example. But go ahead and

App. 62
give us your argument and wind up in about another
minute.
MS. SHARRETTS:

Okay, thank you, Your

Honor.
The Texas and the United States Constitutions, as
well as the Texas and U.S. Supreme Court, have long
held that “parties interested and not joined in this suit
will not be bound thereby” and “a judgment entered
without notice or service is constitutionally infirm.”
Per Humphrey v. Beaumont Irrigating Co., Horton
had the burden to prove that the Sieberman owners
were joined in the suit, the 1941 suit, and they did not.
That shows that the Sieberman Survey is an existing patent, especially in the superior legal title
that’s conclusive against the State and all persons.
Horton has produced no title, or even a patent, for
the Hodge under which it has its claims of title. It
simply gave us a 2012 Lease [12] that it prepared on
its own, and a 2012 survey that it prepared, and that
was all the title that we had.
So they didn’t even try to establish they had title.
All throughout the actual -their motion for summary
judgment responses, they asserted five times “we are
not claiming title. This is not what we’re going after.
We did not adversely possess. We’re not even going
there.”
They didn’t attempt to even show they had title to
the Sieberman.

App. 63
But the Hodge Survey is patented. The Sieberman
Survey is patented with the GLO. Therefore, it is gold.
A superior title in Texas. And they can’t deny that under a summary judgment. They didn’t even send a patent. They only had nine pieces of evidence under the
summary judgment. It certainly didn’t come close to
being proof as a matter of law.
JUSTICE JAMISON: Okay, thank you. You’ll
have time on rebuttal.
MS. SHARRETTS:
*

*

Okay, thank you.
*

CERTIFICATE
I, Randel Raison, certified electronic court transcriber, do hereby certify that I typed the proceeding in
the foregoing matter from audio recording, or the transcript was prepared under my direction, and that this
is as accurate a transcript of what happened at that
time and place as best as is possible, due to conditions
of recording and/or duplicating.
/s/ Randel Raison
Randel Raison, CET 340

